         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report



       American Recovery and
       Reinvestment Act Site Inspection of
       the Ultraviolet Treatment and
       Chlorine Disinfection Facility Project,
       City of Bremerton, Washington

       Report No. 10-R-0132

       May 26, 2010
Report Contributors:                            Eileen Collins
                                                Michael Owen




Abbreviations

A/E          Architectural and engineering services
ARRA         American Recovery and Reinvestment Act of 2009
DWSRF        Drinking Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General




Cover Illustration: The logo for the American Recovery and Reinvestment Act of 2009
                       U.S. Environmental Protection Agency 	                                            10-R-0132
                                                                                                       May 26, 2010
                       Office of Inspector General



                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            American Recovery and Reinvestment Act
The U.S. Environmental
                                  Site Inspection of the Ultraviolet Treatment
Protection Agency (EPA)           and Chlorine Disinfection Facility Project,
Office of Inspector General
(OIG) conducts site visits of
                                  City of Bremerton, Washington
American Recovery and
                                   What We Found
Reinvestment Act of 2009
clean water and drinking water
                                  We conducted a site inspection at the City of Bremerton, Washington, in June
projects. We selected a City
                                  2009. As part of our inspection, we toured the future site of the Ultraviolet
of Bremerton, Washington,
                                  Treatment and Chlorine Disinfection Facility, conducted interviews of City
project for review.
                                  representatives, and reviewed documentation related to Recovery Act
                                  requirements.
Background

The City received a               Based upon our site inspection, nothing came to our attention that would require
$6.06 million loan from the       action from the City.
State of Washington under the
Drinking Water State
Revolving Fund program.
The loan terms include a
$60,000 loan fee and
100 percent forgiveness on the
$6 million principal funded
by the Recovery Act. The
purpose of the project is to
design and construct an
Ultraviolet Treatment and
Chlorine Disinfection Facility.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100526-10-R-0132.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          May 26, 2010

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Inspection of the
          Ultraviolet Treatment and Chlorine Disinfection Facility Project,
          City of Bremerton, Washington
          Report No. 10-R-0132


FROM:          For Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Dennis McLerran
               Regional Administrator, EPA Region 10


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. We performed this site inspection as part of our
responsibility under the American Recovery and Reinvestment Act of 2009. The purpose of our
site inspection was to determine the City’s compliance with selected requirements of the
Recovery Act pertaining to the Drinking Water State Revolving Fund program. The City
received a $6.06 million Drinking Water State Revolving Fund loan. The loan terms include a
$60,000 loan fee and 100 percent forgiveness on the $6 million principal funded by the Recovery
Act.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rate in effect at the time – is $51,176.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objection to the further release of this report to the public. This report will be made
available at http://epa.gov/oig. If you or your staff have any questions regarding this report,
please contact Robert Adachi at (415) 947-4537 or adachi.robert@epa.gov, or Michael Owen at
(206) 553-2542 or owen.michael@epa.gov.
                                                                                        10-R-0132 



Purpose
The purpose of our review was to determine the compliance of the City of Bremerton,
Washington, with requirements for subrecipients of American Recovery and Reinvestment Act
of 2009 (ARRA) funds under the Drinking Water State Revolving Fund (DWSRF) program.

Background
The City entered into a loan agreement with the Washington State Department of Community,
Trade and Economic Development to design and construct an Ultraviolet Treatment and
Chlorine Disinfection Facility. The City received a DWSRF loan for $6.06 million. The loan
terms include a $60,000 loan fee and 100 percent forgiveness on the $6 million principal funded
by the Recovery Act. The loan fee has a 5-year repayment period at 0 percent interest.

Scope and Methodology
Due to the time-critical nature of ARRA requirements, we did not perform this assignment in
accordance with generally accepted government auditing standards. We did not perform certain
steps that would allow us to obtain information to assess the City’s internal controls and any
previously reported audit concerns. As a result, we do not express an opinion on the adequacy of
the City’s internal controls or compliance with all federal, State of Washington (State), or local
requirements.

We conducted an onsite inspection at the City of Bremerton on June 1 and 8, 2009. During our
inspection we:

   •	 Conducted interviews of the subrecipient’s project and financial managers;
   •	 Reviewed the subrecipient’s procurement policies and procedures;
   •	 Reviewed records maintained by the subrecipient, including procurement documentation;
      and
   •	 Toured the project site.

At the time of the onsite inspection, the City’s ARRA-funded DWSRF loan with the State of
Washington had not been executed. However, the State had informed the City that it would
receive the loan and that the funding would cover allowable project costs incurred after March 1,
2009. The loan contract was executed on August 10, 2009.

Subsequent to the onsite inspection, we reviewed the loan agreement to determine the specific
loan terms and applicable procurement standards. We interviewed State managers and staff to
clarify the loan terms and applicable procurement requirements. We also reviewed State
procurement regulations and related manuals.




                                                1

                                                                                      10-R-0132 



Results of Site Inspection
Based upon our site inspection, nothing came to our attention that would require action from the
City. We reviewed the City’s procurement of architectural and engineering services (A/E). The
City awarded a contract to an A/E firm to provide engineering design and bid support services
for the Ultraviolet Treatment Facility and Chlorine Disinfection Facility project. This contract
commenced on May 8, 2009. The A/E firm was selected based on qualifications and price
negotiation. The City's award of the A/E services contract complied with the applicable State
regulation, Revised Code of Washington 39.80.

Recommendations
We have no recommendations.

Subrecipient’s Response and Office of Inspector General Comment
On May 6, 2010, we held a meeting with the City of Bremerton and EPA Region 10 to obtain
their response to the discussion draft report. Neither party had any concerns with the report.
Although invited, the State did not attend the meeting. The State informed us on May 14, 2010,
that it did not have any comments on the discussion draft. We have no further comments.




                                               2

                                                                                                                           10-R-0132



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             3

                                                                                  10-R-0132


                                                                              Appendix A

                                   Distribution

Office of the Administrator
Regional Administrator, Region 10 (Action Official)
Director, Grants and Interagency Agreements Management Division, Office of Administration
       and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 10
Public Affairs Officer, Region 10
Mayor, City of Bremerton, Washington
Director, Office of Drinking Water, Department of Health, State of Washington
Acting Inspector General




                                             4

